HHS/OIG, Audit -"Audit of New Jersey's Upper Payment Limits for State Fiscal Year 2001 Through 2003,"(A-02-03-01019)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of New Jersey's Upper Payment Limits for State Fiscal Year 2001 Through 2003," (A-02-03-01019)
March 31, 2005
Complete
Text of Report is available in PDF format (326 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether New Jersey calculated the upper payment limits (UPLs) for non-State
government hospitals in accordance with Federal regulations and the approved State plan amendments.  Federal
funds are not available for Medicaid payments that exceed the UPLs.  We found that New Jersey
calculated the state fiscal years (SFYs) 2001 and 2002 UPLs for non-State government hospitals inpatient
services in accordance with Federal regulations and the approved State plan amendment.  However,
New Jersey did not calculate the SFY 2003 UPL in accordance with Federal regulations and the approved
State plan amendment, which resulted in unallowable Medicaid payments of $17,579,568 ($8,789,784 Federal
share).  New Jersey generally calculated the UPLs for non-State government hospitals outpatient
services in accordance with Federal regulations and the approved State plan amendment.  However,
New Jersey inadvertently applied an improper inflation factor in its SFY 2003 UPL calculation, resulting
in unallowable Medicaid payments of $3,817,050 ($1,908,525 Federal share).  We recommended that
New Jersey refund to the Federal Government unallowable Medicaid payments of $10,698,309.  New
Jersey officials concurred.